 U.S. Department of the Interior
 Office of Inspector General




            AUDIT REPORT


CONCESSION CONTRACTING PROCEDURES,
      NATIONAL PARK SERVICE


              REPORT NO. 99-I-626
                  JUNE 1999
                                                                       E-IN-NPS-0 14-97-D


             United States Department of the Interior
                           OFFICE OF INSPECTOR GENERAL
                                  Washington, D.C. 20240



Memorandum                                                               JUN 301999
To:            Director, National Park Service
                                                           \       k
From:          Robert J. Williams                      &J&w_
               Assistant Inspector

Subject:       Audit Report on Concession Contracting Procedures, National Park Service
               (No. 99-I-626)

This report presents the results of our audit of the National Park Service’s concession
contracting procedures. The objective of the audit was to determine whether the National
Park Service conducted its concession contracting activities in compliance with Federal law
and Park Service regulations.

We found that the Park Service did not conduct concession contracting activities in full
compliance with Federal law and Park Service regulations or ensure that a fair return was
obtained from all concessioners operating in the national park system. Specifically, the Park
Service did not reissue expired concession contracts and permits in a timely manner;
periodically adjust concessioners’ fees as required by the Concessions Policy Act; establish
special accounts in accordance with Park Service guidance; or compute fees for the use of
park facilities, including housing, that were assigned to concessioners. These deficiencies
occurred because the Park Service had not issued sufficient guidance to ensure that
designated responsibilities for concession contracting were performed or completed in a
timely manner. had not established clear lines of authority, and had insufficient internal
controls to properly monitor compliance with law and regulations. As a result, concessioners
operated under expired concession contracts and permits that contained provisions which
were not advantageous to the Park Service, the Government lost or delayed opportunities to
gain additional revenues, and the Park Service may not have received an adequate return
from concessioners. special accounts or from their use of park facilities.

In the May 27, 1999, response (Appendix 4) to the draft report from the Director, National
Park Service, the Park Service indicated concurrence with Recommendations 1, 5, 6. 7, 8,
and 9 and said that Recommendations 2, 3, and 4 were “under consideration, and a final
decision should be made within the next few weeks.” Based on the response, we consider
Recommendations 5 and 7 resolved and implemented. Also based on the response. we
request that the Park Service reconsider its responses to Recommendations 1.2,3,4,6. and
8, which are unresolved, and provide additional information for Recommendation 9 (see
Appendix 5).
In accordance with the Departmental Manual (360 DM 5.3), we are requesting a written
response to this report by August 13, 1999. The response should provide the information
requested in Appendix 5.

The legislation, as amended, creating the Office of Inspector General, requires semiannual
reporting to the Congress on all audit reports issued, the monetary impact of audit findings
(Appendix l), actions taken to implement audit recommendations. and identification of each
significant recommendation on which corrective action has not been taken.

We appreciate the assistance of Park Service personnel in the conduct of our audit.
                                                        CONTENTS

                                                                                                                                  Page

INTRODUCTION.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      .

          BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
          OBJECTIVE AND SCOPE ................................................3
          PRIORAUDITCOVERAGE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

FINDING AND RECOMMENDATIONS ......................................... .5

          CONCESSION CONTRACTING ACTIVITIES .............................. .5

APPENDICES

          1.   CLASSIFICATION OF MONETARY AMOUNTS ........................                                                             .20
          2.   OFFICES CONTACTED .............................................                                                         .2 1
          3.   PRIOR AUDITCOVERAGE...........................................2                                                           2
          4.   NATIONAL PARK SERVICE RESPONSE ..............................                                                           .25
          5.   STATUS OF AUDIT REPORT RECOMMENDATIONS ...................                                                              .28
                                       INTRODUCTION


BACKGROUND

The National Park System Concessions Policy Act of 1965 (Public Law 89-249) authorized
concessions operations in the national parks. The Act directed the Secretary of the Interior
“to administer national park system areas in accordance with the fundamental purposes of
conserving their scenery, wildlife, natural and historic objects, and providing for their
enjoyment in a manner that will leave them unimpaired for the enjoyment of future
generations.” To provide for public use of the parks, the Act authorized the Secretary “to
encourage and enable ” concessioners to provide and operate facilities and services deemed
desirable for the accommodation of visitors to the national parks.

To authorize concessions operations, the Park Service issues permits or awards contracts to
“private persons and corporations.” According to the Park Service’s Concessions
Management Guideline, NPS-48, Chapter 24, permits are issued usually for periods of fewer
than 5 years and for concessions operations that are not expected to gross more than
$100,000 a year. Longer term concessions operators having estimated gross receipts of more
than $100,000 generally are awarded concession contracts.’ Contracts and permits (referred
to hereafter as agreements) specify the terms and conditions of a concessioner’s operations,
including the services, accommodations, or facilities offered; the period of performance;
concessioner responsibility for maintenance and repair of facilities; and financial reporting
and fee payment requirements.

Section 3(d) of the Act provides for concessioners to pay a fee to the Government for the
“probable value . . . of the privileges granted by the particular contract or permit involved.”
Typically, concessioners pay a franchise fee to the Government based on a percentage of the
gross receipts from the concessions operations. According to the Act, the fee must be
reconsidered at least every 5 years. In addition, some concessioners are required to establish
and make payments to concessioner improvement accounts (special accounts).’ Further.
concessioners that use Government facilities may be required to pay a building use fee. In
calendar year 1997 (the most recent data available, according to a Park Service offcial)Y
concessioners paid franchise fees of $17.1 million and deposited $26.2 million into special
accounts. The Park Senice also reported that concessioners provided other consideration


‘According to the Code of Federal Regulations (36 CFR 51.3), contracts are used for larger concession
operations and permits are used for “those of less complexity.”

‘There are two types of special (capital improvement) accounts: government improvement accounts and
capital improvement accounts. According to Park Service guidance, moneys paid to these accounts are to be
used “to rehabilitate or construct facilities which directly support concessioner services as authorized andi’or
required by a concession contract.” Government improvement accounts finance capital improvements made
to Government-owned facilities. and capital improvement accounts finance capital improvements made to
concessioner-constructed facilities.
to the Government in 1997, including about a $9.1 million liquidation of their possessory
interests (ownership) in concessions facilities.3

Concessions program responsibilities are assigned to employees at all levels of the Park
Service. For example, the Concessions Management Division in Washington, D.C., provides
direction and policy guidance for the concessions program, and the Division’s Concessions
Program Center in Denver, Colorado, is responsible for concessions planning and analysis,
including technical services such as business analyses and feasibility studies, that support
concessions management officials at field locations. At the Park Service’s support offices,
which are affiliated with the regional offices, concessions personnel are responsible for
providing or obtaining professional, technical, and administrative services, and at the parks,
employees are assigned concessions program responsibilities, such as ensuring that
concessioners operate in compliance with contract provisions and operating/maintenance
plan requirements. According to the Park Service, about 219 employees were assigned to
the concessions program in 1997, of which 129 employees were assigned on a full-time basis
and 90 employees were assigned on a collateral-duty basis. In fiscal year 1996, the
concessions program received funding of $7.2 million, and in fiscal year 1997, the program
received funding of $7.8 million. According to Park Service records, as of September 30,
1997, the Park Service had 216 contracts and 420 permits issued to concessioners that
operated at 133 park units nationwide.

Since 1990, the Park Service has made several changes to its concession contracting
procedures. For example, in December 1990, the Park Service issued Special Directive 90-7,
“Revised Delegations ofAuthority for Concession Contracting,” which required the approval
of the Park Service Director for all concession agreements that had terms of 5 years or more
or expected annual gross receipts of more than $100,000. In September 1992, regulations
on concession contracting were revised (36 CFR 5 1) to increase competition and to improve
oversight of the sale and assignment of concession interests.4 In January 1993, the Park
Service revised the standard concession contract language to conform to the provisions of
the new regulations, and in July 1995, the Park Service issued Special Directive 95-9,
“Revised Delegations of Authority for Concession Contracting,” which decentralized the
concession contracting process by delegating authority for concession contracting actions to
field directors (now regional directors) and for concession permit actions to park
superintendents.




’ Public Law 89-249 provides for concessioners to have a possessory interest in park improvements that they
construct. The law states that just compensation for a concessioner’s possessory interest, “unless otherwise
provided by agreement,” should be “an amount equal to the sound value of such structure. fixture. or
improvement. . . determined upon the basis of reconstruction cost less depreciation evidenced by its condition
and prospective serviceability in comparison with a new unit of like kind, but not to exceed fair market value.”

The Regulation amended the definition ofand placed some restrictions on the concessioner’s preferential right
to new and additional services, increased the amount of concessions financial information that is available to
the public, and clarified the Park Service’s authority over the sale or transfer of concessions interests.

                                                       2
On November 13, 1998, the President signed the National Park Service Concessions
Management Improvement Act of 1998, Public Law 105-91, which repealed the 1965
Concessions Policy Act but did not affect the validity of any concession contract or permit
entered into under the 1965 Act. The 1998 Act retains certain provisions of the rescinded
Act, such as the role of the concessions operator as a provider of public accommodations.
facilities, and services in the parks and payment of franchise fees “or such other monetary
consideration as determined by the SecretaT, upon consideration of the probable value to
the concessioner of the privileges granted by the particular contract involved.” However, the
1998 Act also contains some significant changes to the former concessions legislation,
including provisions for the Park Service to retain franchise fees and other monetary
consideration paid by concessioners that previously were retained by the Federal
Government, discontinuation of the granting of preferential rights to concession contract
renewal or to new or additional services (with certain limited exceptions), a shift from
possessory interests to “leasehold surrender interests” in capital improvements constructed
by a concessioner, the establishment of minimum requirements for proposed concessions
operations, the establishment of aNational Park Service Concessions Management Advisory
Board, and the authorization of contractor support “to conduct or assist in those elements of
the management” of the Park Service’s concessions program.

In the December 1,1998, issue of the “Federal Register.” the Park Service gave public notice
that as a result of the legislation, it was canceling all outstanding solicitations for concession
agreements except for permits for cruise ship services. The Concessions Program Manager
said that the Park Service planned to issue draft concession contract regulations in March
1999, provide training on new contract provisions to Park Service personnel involved in the
concessions program in the spring of 1999, and resume contracting by the end of the summer
of 1999.

OBJECTIVE AND SCOPE

The objective of the audit was to determine whether the National Park Service conducted its
concession contracting activities in compliance with Federal law and Park Service
regulations. The scope of our audit, in general, covered activities that occurred during fiscal
years 1996 and 1997, including the reissuance or extension of expired agreements (according
to Park Service records, as of September 30, 1997, 232 of the 636 concession agreements
were in an expired status) and the periodic reconsideration of concessions fees (we identified
56 agreements that were due for fee reconsiderations during fiscal years 1996 and 1997).

We conducted our review at the Concessions Management Division in Washington, D.C.;
the Concessions Program Center in Denver, Colorado; and the Park Service’s Intermountain
Regional Office in Denver. We also contacted the regional and park offices listed in
Appendix 2 to obtain copies of concession agreements, fee determinations, and special
account projects and to interview officials about concessions operations. To evaluate
concession contracting procedures, we reviewed (1) a judgmental sample of 24 of the 196
concession agreements that, according to Park Service records, had been issued or reissued
in fiscal years 1996 and 1997; (2) all 19 franchise fee determinations that had been
performed during this 2-year period; and (3) all 12 concession contracts that had reported
1995 revenues (the most recent data available on concessioner revenues at the time of our
review) of $500,000 or more and that had been in an expired status for 5 or more years as of
September 30, 1997.

Our audit was made in accordance with the “Government Auditing Standards,” issued by the
Comptroller General of the United States. Accordingly, we included such tests of records
and other auditing procedures that were considered necessary under the circumstances. As
part of our review, we evaluated the system of internal controls over the concession
contracting process to the extent we considered necessary to accomplish the audit objective.
We found internal control weaknesses in the Park Service’s supervision and oversight of
concession contracting activities as discussed in the Finding and Recommendations section
of this report. Our recommendations, if implemented, should improve internal controls in
these areas.

We also reviewed the Departmental Reports on Accountability for fiscal years 1996 and
1997, which include information required by the Federal Managers’ Financial Integrity Act,
and found that the Park Service had not reported any material weaknesses related to the
objective and scope of our audit.

PRIOR AUDIT COVERAGE

During the past 6 years, the Office of Inspector General has issued seven reports and the
General Accounting Office has issued three reports that contained findings on concession
contracting activities. These reports are summarized in Appendix 3.




                                             4
                FINDING AND RECOMMENDATIONS

CONCESSION CONTRACTING ACTIVITIES

The National Park Service did not fully comply with Federal law or Park Service regulations
or ensure that it obtained a fair return from all conccssioners operating in the national park
system. Specifically, the Park Service did not ensure that expired concession agreements
were reissued in a timely manner, franchise fees were periodically adjusted, and special
accounts were established and used properly. Also, the Park Service did not comply with
guidance on determining building use fees or determine whether concessioners should pay
for their employees’ use ofpark housing. Park Service guidance, including the Concessions
Management Guidelines, NPS-48, and guidance issued by the Park Service’s Associate
Director for Operations limit the length of time a concession contract can be extended, and
the Concessions Policy Act (Public Law 89-249) and Park Service guidance require that
franchise fees be reconsidered “at least every five years.” Also, Park Service guidance
requires the establishment of special accounts on the basis of the costs of planned projects
that are to be financed with account funds and the determination of a use fee based on the fair
value ofpark facilities that are assigned to concessioners. The deficiencies occurred because
the Park Service had not issued specific guidance to ensure that designated responsibilities
for concession contracting were performed or completed in a timely manner, had not
established clear lines of authority, and had inadequate internal controls to monitor
compliance with law and regulations. As a result, Park Service concessioners continued to
operate under expired concession agreements that contained provisions which were not
advantageous to the Park Service, the Government lost or delayed the opportunity to receive
additional revenues, and the Park Service may not have received a fair return from
concessioners’ special accounts or from their use of park facilities.

Director’s Approval
Special Directive 95-9, “Revised Delegation of Authority for Concession Contracting,”
assigned responsibility for most concession contracting functions to field-level officials.
However, the Directive required the Director’s approval for (1) prospectuses for concession
contracts that had expected annual gross receipts of $500,000 or more, (2) proposed
amendments to existing contracts that reduced the Government’s return. and (3) all franchise
fee determinations and reconsiderations. In addition, the Directive stated that the Director
or his designee must approve all sales and transfers of concession authorizations.

We found that the Park Service had not implemented the Directive’s requirement that certain
concession contracting actions should receive the Director’s approval. Specifically_ the
Director did not approve prospectuses for all 7 contracts reviewed that had expected annual
gross receipts of $500,000 or more, the 2 sales or transfers of concession authorizations
reviewed, and all 19 franchise fee determinations and 2 other fee adjustments reviewed.
Because we identified no proposed amendments to existing contracts that reduced the
Government’s return, we could not determine whether the Director had approved such
transactions.

According to the Concessions Program Manager, the Director had not approved the
concession contracting actions in accordance with the Directive’s requirements because the
approval authority had been delegated to the Concessions Management Division and the
Concessions Program Center. After completion of our audit fieldwork, the Director, in
February 1999, issued the memorandum “Delegation of Approval Authority, Concession
Contracts and Permits,“which delegated to the Associate Director, Park Operations and
Education, authority to approve the Directive’s listed contracting actions “except for those
concession operations where gross receipts are expected to exceed $1 O,OOO,OOO annually.”

Contract Reissuance and Extension

The Park Service’s Concessions Management Guideline (NPS-48, Chapter 10) and
memoranda issued by the Associate Director for Operations provide guidance on concession
contract issuance and authorize two methods for extending the contract performance period:
issuance of interim letters of authorization or issuance of contract amendments. NPS-48,
issued in January 1986, states that interim letters of authorization were to be used for
“emergency situations only and should not be relied upon as a standard method of operation”
and that extensions “normally” were of a “limited duration.” NPS-48 further states that “if
a 1 or 2-year extension” would not allow adequate time “to fully effect a new contract before
the proposed extension expires . . . the park and region should consider issuing a S-year
contract to ensure that further extensions will not be necessary.” In fiscal year 1995, the
Associate Director for Operations issued guidance stating that after fiscal year 1995, interim
letters of authorization could only be “approved on a case-by-case basis by the Washington
Concessions Division.” In a February1996 memorandum, the Associate Director further
stated that concession contract extensions could be issued for 1 or 2 years but that 3-year
extensions should be “reserved for unusual circumstances” and that extensions of more than
3 years “may not be issued. ”

However, we found that Park Service personnel did not fully comply with this guidance.
Specifically, as of September 30, 1997,47 contracts and 98 permits (about 23 percent of all
agreements) had been in an expired status for more than the maximum authorized 3-year
period for extensions. On average, these contracts and permits had been extended for about
6.2 years and 5.1 years, respectively. In extending the performance periods, the Park Service
often used letters of authorization for lengthy periods, and in some cases, it did not prepare
an authorization to extend the performance period. For example, we identified six expired
agreements for which no extensions, either letters of authorization or amendments: had been
prepared for periods of 6 to 50 months.

According to Special Directive 95-9, “Revised Delegations of Authority for Concession
Contracting,” park superintendents and regional directors are “accountable for proper
management of the concession program under his or her authority” and “compliance with
program [concession contracting] standards and results achieved will be taken into

                                              6
consideration in the course of annual performance reviews.” To determine whether this
directive had been implemented and to obtain information on the causes for delays in the
reissuance of agreements and the lengthy extensions of performance periods, we interviewed
concessions specialists in the parks, regional and support offices, and the Concessions
Program Office; park superintendents; and regional office directors.

Park and regional officials attributed delays in processing concession agreements primarily
to the “confusion” resulting from a restructuring of the Park Service that occurred after a
November 1994 “Restructuring Plan for the National Park Service” was implemented.5 Even
though the Park Service had issued guidance on the assignment of responsibility, including
Special Directive 95-9 and a March 1997 memorandum from the Concessions Program
Manager that described the concessions support services that were provided by personnel at
the Concessions Management Division and at the Concessions Program Center, officials at
all nine parks interviewed said that the reorganization had created confusion. For example.
one official said that he was uncertain as to “who does what,” and another official said that
it was unclear “who works for whom.”

We found that the Restructuring Plan did not provide clear and detailed guidance on
concession contracting. Although the Plan said that a “comprehensive analysis” and a
“detailed concessions management plan” would be developed to implement the Plan, we
found that such an analysis or plan had not been issued. The Concessions Program Manager
did issue a February 1995 memorandum, “Concession Program Strategy,” as a “framework
from which we can organize our Concessions Program.” However, the Strategy did not
provide detailed implementing instructions but stated that the “necessary procedures and
requirements will be implemented” and that the “standards and procedures to assure quality
products (contracts, evaluations, rate approvals, etc.) must be further developed and
communicated.” The Strategy also did not establish a clear line of authority between those
who were held accountable for concession contracting actions (park superintendents and
regional directors) and those who provided concession contracting technical support services
(the Concessions Program Center and regional support offices).

We also found that Park Service officials did not effectively communicate concessions policy
to field personnel, which contributed to the backlog of contracting actions. For example, in
October 1991, the then-Secretary of the Interior issued the memorandum “Concessions
Management Reforms,” which imposed “temporary measures” to “refrain from entering into
new long term concessions agreements or renewing existing agreements for extended
periods” pending review of proposed concessions management reforms. Park and regional
officials referred to these measures as a “moratorium” and stated that they had never received
formal notification that the restrictions on contracting had been lifted. They also attributed
delays in processing agreements to proposed legislation to reform the concessions program
and the frequent changes in concession contracting policies and practices that had been
made in response to the anticipated legislative reforms.


5The Plan reduced the Park Service’s 10 regional offices to 7 field directorates with support offices. In
February 1997, the field directorates were redesignated regional offices.

                                                    7
We also found that the Park Service had not implemented management controls to ensure
compliance with Park Service regulations or Federal law and timely reissuance of
agreements. For example, although Special Directive 95-9 stated that concessions
contracting would be taken “into consideration” during park superintendents’ and regional
directors’ annual performance reviews, we found that the superintendents’ and regional
directors’ performance standards contained no critical elements related to their concession
contracting duties. Also, park and regional management said that they had not received or
issued any guidance or directives establishing milestones or schedules for the completion of
contracting actions. We also found no indication that park or regional officials had taken
actions to curtail excessive use of interim letters of authorization and amendments to extend
the performance periods or to conduct internal control reviews of the parks’ concession
contracting programs. Moreover, the Park Service’s Annual Performance Plan for fiscal year
1999 did not contain goals for processing concession contracting actions.

We concluded that by not reissuing agreements in a more timely manner, the Park Service
delayed the opportunity to obtain more favorable terms and conditions for the Government.
Specifically, based on our analysis of the 24 agreements that had been reissued during the
scope of our audit and of the 12 agreements that had been in an expired status for 5 or more
years as of September 30, 1997, we found that reissued agreements contained provisions
which were more favorable to the Government, such as a higher financial return, the
reduction of possessory interest over the life of a contract, an extended period for the
reconsideration of fees, greater utility and maintenance cost reimbursements, and the
elimination of preferential rights, as described in the paragraphs that follow.

        Financial Compensation. For 10 of the 12 agreements that had expired and had not
been reissued, there was no record that the franchise fees had been reconsidered or adjusted
during the past 5 years. For example, one contract that expired in 1990 had no record of a
fee reconsideration since 1970, when the contract was issued. Under the existing contract,
the concessioner pays a franchise fee of 1.5 percent of gross receipts.

Ten of the 24 reissued agreements reviewed provided better returns to the Government, with
some franchise fees increasing significantly over prior levels (in two cases. the rates
increased by 100 percent or more). For example, in one reissued contract, compensation to
the Government increased from a building use fee of $200 a year to a payment of 1 percent
of gross receipts and $7,620 a year into a special account, an investment of $1.362,000 in
an improvement program, and payment of a franchise fee of $2,400 a year. The 14 other
reissued agreements either had the same return to the Government or the fee structure had
changed, and we could not determine the effect of the rate change on the Government’s
return.

        Fee Reconsideration Period. Eleven of the 12 expired agreements provided a 60-
day period for fee reconsideration, and the remaining agreement provided a 90-day
reconsideration period.




                                             8
The reissued agreements contained provisions that provided the Park Service a 1 SO-day
period to reconsider fees. A longer reconsideration period, in our opinion, will provide the
Park Service with additional time to prepare more comprehensive financial analyses and to
engage in negotiations for fee adjustments.

         Utility Cost Reimbursement. Six expired contracts did not require the concessioner
to fully reimburse the Government for the cost of utility services provided by the Park
Service.

Two agreements that previously had provisions for the reimbursement of utility services at
a “reasonable” rate were reissued with provisions for the Park Service to be fully reimbursed
for its cost of providing the service. Park Service guidance requires concessioners to pay
fully for the cost of Park Service-provided utility services.

         Maintenance. One contract that expired in 1991 (and had not been reissued)
required the Park Service to maintain the exterior of the building used by the concessioner;
install, repair, and replace heating, plumbing, and electrical systems; provide road surfacing;
clear water and drainage lines to the building; and install, repair, and replace pilings and
bulkheads at a dock area used by the concessioner. Another expired contract required the
Park Service to assume responsibility for maintenance work on Government facilities
assigned to the concessioner if the repair cost was more than $300.

Three agreements that previously did not assign maintenance responsibilities to
concessioners were reissued with provisions which required the concessioners to maintain
all facilities used in their operations. Another agreement, which previously assigned the
concessioner responsibility only for maintaining its own facilities, was reissued with a
provision that required the concessioner to maintain both concessioner and Government
facilities.

        Preferential Rights Nine expired agreements granted the concessioners preferential
rights to all additional commercial opportunities within the general area of operation.

None of the reissued agreements granted concessioners preferential rights to renewal or to
additional commercial opportunities within the general area of operation. The Code of
Federal Regulations (36 CFR 5 1) “Concession Contracts and Permits”) states that restricting
preferential rights “would enhance competition by limiting the availability of the anti-
competitive preferential right to additional services.”

The potential benefits of reissuing agreements in a more timely manner is further illustrated
by one contract that was in an expired status for 10 l/2 years as of September 30, 1997, and
that was reissued in January 1998 to the same concessioner. Although the original 1975
contract established a franchise fee of 3 percent of gross receipts (which remained in effect
until contract reissuance), the reissued contract established a franchise fee payment of 11
percent. If, upon expiration, the contract had been reissued with the higher fee, the



                                              9
Government would have received additional franchise fees of $79,119 in 1996 and additional
fees of $83,452 in 1997.

Fee Reconsiderations/Fee Determinations

To establish a recommended return from a concessions operator, the Park Service performs
fee determinations. These financial analyses entail a review of a concessioner’s financial
operations, typically for a 5-year period. The recommended rates usually are based on a
return that enables the concessioner to operate at a level of profitability within the median
range of profitability of comparable businesses, as measured by the return on equity, assets,
and revenues. Fee determinations are performed to establish the fees in new or reissued
contracts and to negotiate fee adjustments during the fee reconsideration process.

Of the19 fee determinations that were performed during fiscal years 1996 and 1997, we
found that the Park Service complied with its internal procedures for performing fee
determinations and that it computed recommended fees on the basis of “the opportunity for
net profit in relation to both gross receipts and capital invested,” as required by the
Concessions Policy Act. In 13 of 19 cases, recommended fees were computed at amounts
that enabled the concessioners to earn a return on equity, gross receipts, and assets equivalent
to industry averages. However, in four cases, the recommended rates provided a higher than
industry average return, and in two cases, the recommended rates provided a lower than
industry average return.

The Park Service, however, did not periodically reconsider franchise fees at least every 5
years, as required by the Concessions Policy Act. We identified 56 agreements that were due
for a periodic fee reconsideration during fiscal years 1996 and 1997 and found that only 8
fee determinations were performed for a reconsideration of the fees of the existing
concessioners and that Park Service officials negotiated fee adjustments for 2 other
agreements. As such, about 82 percent (46 of 56) of the required, periodic franchise fee
reconsiderations were not performed.

Of the 10 agreements that had reconsidered fees in fiscal years 1996 and 1997, fee
adjustments were recommended in 8 cases and no fee adjustments were recommended in 2
cases. The Park Service implemented six of the eight recommended fee adjustments. It did
not implement one fee adjustment, which would have increased fees by 67 percent, because
a natural disaster at the park might have an adverse effect on the concessioner’s business,
according to a park official. The park. however, had not prepared an analysis of the adverse
effect to justify continued use of the existing rate. In the other case in which a 50 percent
increase in fees was recommended, a park official said that the park, having not received a
copy of the fee determination, was unaware that the financial analysis had been performed.

We found that the Park Service had not established a clear line of authority to ensure that
fees were periodically reconsidered. A memorandum issued in March 1997 by the
Concessions Program Manager assigned responsibility for performing the fee determinations
to the Concessions Program Center, but the memorandum did not state whether the parks or

                                              10
the regions were responsible for requesting these analyses. Consequently, park officials
expressed different opinions as to which organization had responsibility for making the
requests. Of the nine parks and four regions contacted, officials at three parks and two
regions stated that they did not know whether the parks or the regions should request the
analyses, officials at three parks stated that it was the parks’ responsibility to request the
analyses, and officials at the remaining three parks and two regions stated that it was the
regions’ responsibility to request the fee determinations. Based on the conditions noted, we
concluded that the recommendation in our September 1994 audit report “Concessions
Management, National Park Service ” (No. 94-I-121 1) to issue and implement “a policy
directive that identifies the required actions, responsible parties, and time frames needed to
ensure that franchise fee reconsiderations are expeditiously completed and implemented” had
not been fully implemented.

To evaluate the monetary impact of fee determinations, we reviewed the 21 fee
determinations/analyses that were performed in fiscal years 1996 and 1997 for fee
reconsiderations (8 agreements) and for contract reissuances or purposes such as the
proposed sale of a concessions interest (13 agreements).6      These fee determinations
recommended fee adjustments for 17 agreements (8 of which were implemented) and no fee
adjustments for 4 agreements. Based on our comparison of the concessioners’ established
fees and those fees recommended in the fee determinations, we found that Government
revenues would have increased on average by more than 38 percent (based on an analysis of
11 of the 17 agreements for which rate comparisons could be made) if the recommended fee
adjustments had been implemented.

In one of the eight cases in which fee adjustments were implemented, the Park Service
imposed lower than recommended fees.             In this case, a fee determination led to a
recommendation that the concessioner should pay fees of 6.25 percent of gross receipts,
consisting of a 3.50 percent franchise fee and a 2.75 percent payment to a special account,
and make an investment of $1.5 million in a building improvement program. ‘Also. the
concessioner’s possessory interest was to be written off over a 30-year period. After the fee
determination, the Park Service awarded a new contract to the concessioner in which it
required a franchise fee payment of 3.50 percent of gross receipts, a special account
contribution of 1 percent, and an improvement program investment of $1.5 million. The new
contract also reduced the period of time during which the concessioner’s possessory interest
would be written off to 15 years, thereby increasing the Government’s return by accelerating
the write-off of possessory interest. We estimated that the Government will receive
$1 ,l 18,660 less over the 15-year term of the contract as a result of the Park Service’s having
negotiated a compensation package that provides the Government with a 4.5 percent (3.5
percent franchise fee and 1 percent capital account contribution) return rather than the
recommended 6.25 percent return (adjusted for the effect of the accelerated wTite-off of


‘In fiscal years 1996 and 1997, the Park Service reconsidered the fees for 10 agreements. However, h\o of
the fee reconsiderations were based on fee determinations that had been performed in prior years. Therefore.
we excluded these fee determinations (one recommended a fee increase from 2.5 percent to 3.0 percent. and
the other recommended a fee increase from 1.5 percent to 9.0 percent) from our analysis.

                                                    11
possessory interest). The park’s concessions management chief did not provide any reasons
for implementing the lower than recommended fees.

We believe that the Government may have lost revenues by not reissuing agreements in a
timely manner and by not reconsidering the franchise fees of existing concessioners at least
every 5 years, as required by law. An independent accounting firm noted in its October 1996
report “National Park Service Franchise Fee and AFR [Annual Financial Report] Review”
that “if fees are never reconsidered . . there is a considerable potential loss” for the Park
Service. For example, the Government would have earned additional revenues of about
$116,600 in 1996 and $116,100 in 1997 had recommended rate increases been implemented
on seven of the nine contracts (we could not compare rates in two cases) that had
unimplemented recommended rate increases.

Special Accounts

The Park Service’s “Concession Improvement Account Procedures,” issued in August 1995,
contains procedures for the establishment of special accounts, stating that “when an
improvement account is prepared, the park must have a list ofproposed projects, upon which
to justify the amount of the account (as a percentage of gross receipts).” The “Procedures”
also states that the concession contract and maintenance plan should “provide direction about
the Concessioner’s responsibility to maintain and repair facilities” and that a special account
“is not intended to absorb such costs or to serve as an alternative to an active maintenance
and repair program.”

Eight of the sampled 36 agreements (24 reissued and 12 expired agreements) established
special accounts after issuance of the August 1995 guidance. For three of these agreements,
we found no record that the Park Service determined the estimated costs of projects in
establishing one or more of the concessioners’ special accounts. For example, Park Service
officials did not provide any documentation to show that a project listing with estimated
project costs had been prepared for a special account that required the concessioner to deposit
1 percent of gross receipts (about $15,000 a month, according to the park’s concessions
chief) into the account. We also found no record that the Park Service determined project
costs in establishing the amount to be deposited into two special accounts (one of which was
funded with 7 percent of gross receipts and the other with a $9,792 annual payment).
Another contract established two special accounts, one of which provided funding of
about $1.4 million based on the estimated costs of specific projects ($375,000 of which was
for “yet-to-be identified improvements”). However, the amount of payment to the other
account, 1 percent of gross receipts and $7,620 annually, was not supported with a list of
projects and estimated project costs.

We also found that the projects for one reissued contract inappropriately included
maintenance work that was listed in the concessioner’s maintenance plan such as painting
and repainting spaces in a parking lot (the concessioner operated a parking lot); removing
roots, leaves, and pine needles to provide for proper drainage; and purchasing a tractor for
“regularly recurring maintenance of lawn, curbside and wooded areas.” According to the

                                              12
park’s concessions specialist, maintenance work was included as special account projects
because the park was inexperienced in preparing project listings and there was “a fine line”
between “extraordinary maintenance expenses” and expenses that qualified for special
account financing.

We believe that if the provision for special account contributions is not based on projects and
project cost estimates which are identified at contract issuance, the Park Service is at risk of
special account funds being spent on louver priority or unneeded projects or being used to
subsidize concessioners’ operations. Also, we believe that the use of special account funds
to finance concessioners’ routine operating and maintenance costs does not represent a return
to the Government and should not be reported as such.’ Although we identified only one
account that was established partially to pay maintenance expenses, the “National Park
Service Franchise Fee and AFR [Annual Financial Report] Review” stated that “funds for
special accounts [were] not always used for improvements but sometimes for general
maintenance-type expenses.”

Government Facilities Used by Concessioners

The Concessions Policy Act requires concessioners to pay compensation to the Government
for the “probable value to the concessioner ofthe privileges granted by the particular contract
or permit involved” and that consideration of revenue to the Government should be
“subordinate to the objectives of protecting and preserving the areas and of providing
adequate and appropriate services for visitors at reasonable rates.” Also, NPS-48, Chapter
24, requires the Park Service to determine the fair value of buildings assigned to
concessioners, and Office of Management and Budget Circular A-45, “Rental and
Construction of Government Quarters,” provides guidance on fees for the use of Government
housing.

         Building Use Fees. Chapter 24 of NPS-48 states that for facilities assigned to
concessioners, the Park Service should establish a building use fee that is based on the fair
value return to the Government as determined in accordance with acceptable industry
practices. This guidance further states that fee adjustments can be made taking into
consideration factors regarding reasonable profit as stated in the Concessions Policy Act but
requires that documentation (including the appraisal of the property and support for any
adjustments) be maintained. In December 1995, the Concessions Management Division
issued a memorandum providing guidance on computing building use fees.

The Park Service, however, generally did not determine the value of Government facilities
assigned to concessioners. Of the 24 agreements issued in fiscal years 1996 and 1997 that


‘According to the Park Service, payments to special accounts in fiscal year 1997 (the most recent data
available) were about $26.2 million and franchise fee payments were about $17.1 million. In its Annual
Performance Plan for fiscal year 1999, the Park Service stated that its average return for park concession
contracts was 6.6 percent of gross concessioners’ revenues in 1997 and that it planned to increase the return
to 7 percent in fiscal year 1998 and to 8 percent by September 30, 2002.

                                                     13
we reviewed, 10 agreements provided concessioners with Government facilities that were
subject to a building use fee. * However, we found only one case in which a building use fee
had been computed based on the Park Service’s 1995 procedures. According to Park Service
officials, building use fees were not computed as required for nine agreements for the
following reasons: in four cases, fees were determined before the guidance was issued; in
four other cases, the concessions operations were marginally profitable and the concessioners
were unable to pay a fee based on the building valuation; and in the remaining case. no
explanation was provided.

We recognize that the Park Service considers the total return to the Government in
establishing concessions fees and rates and that the process of computing a building use fee
might not result in additional compensation to the Government. However, we believe that
the Park Service would be able to make better decisions on the economic feasibility of a
concessions operation and on the best use of park facilities by determining the value of
Government property assigned to concessioners.

        Employee Housing. Office of Management and Budget Circular A-45. “Rental and
Construction of Government Quarters,” establishes policies and administrative guidance
regarding “Federally-owned housing (exclusive of military barracks) for civilian and military
personnel, as well as for employees of Government contractors, whether provided on a rental
basis or free of charge.” The Circular contains standards for payments for the use of
Government quarters, stating that (1) the rental rates should be based on their “reasonable
value . . . to the employee. . . in the circumstances under which the quarters are provided,”
(2) the rental amount should not “serve as an inducement in the recruitment or retention of
employees,” and (3) the rental rates should be fair and consistent. According to the Park
Service official responsible for employee housing, the Park Service charges rent to all
employees, contractors, and cooperators who obtain park housing directly from the Park
Service.

In 7 of the 36 agreements reviewed, we found that Government housing was assigned to
concessioners. However, none of the agreements contained provisions requiring
concessioners to pay the Government rent for employee housing,’ and there was no Park
Service official responsible for determining whether concessioners should pay rent for the
use of Government housing. For example, the Director of the Concessions Management
Division stated that Park Service housing officials should establish housing rental rates,
while the Park Service official who was responsible for employee housing said that the
Concessions Management Division should establish rental rates for concessioner housing.



8Two other agreements assigned Government facilities to concessioners. One agreement allo\ved a
concessioner to use a Government dock (for which a use fee was charged), and another agreement assigned
a Government building to a state agency concessioner that was not required to pay building use fees.

‘All seven agreements that provided for concessioner use of Government housing had provisions for the
concessioners to pay building use fees and/or to make special account payments. These payments, however,
were not based on a per employee fee for the use of Government housing.

                                                   14
The Department of the Interior’s Quarters Officer said that the payment of rent for the use
of Government housing by concessioners’ employees is a “legal issue that needs to be
resolved.” According to this official, the Park Service, although it does not have authority
to charge rent to concessioners’ employees, does have the authority to charge concessioners
a fee for the use of facilities that house their employees.

We believe that concession contracts do not protect the Government’s interest with regard
to provisions for concessioner use of Government housing. Of seven concessioners that were
assigned Government housing for their employees, we identified four concessioners that
received reimbursements from their employees for housing or housing-related expenses.
These reimbursements were excluded from the revenue base on which franchise fees were
computed, as provided under Park Service policy. For example:

        - One concession contract provided buildings (referred to as Buildings C- 1 through
C- 15 in the concession contract) for housing concessioner employees. This concessioner,
in 1997, reported reimbursements of $3,254 from employees for meals, lodging, and
transportation.

       - Two other concessioners filed financial reports in 1997 that showed employee
reimbursements for meals, lodging, and transportation totaling $6,48 1.

         - Another concessioner received reimbursements of $40 amonth from employees for
utility costs associated with the employees’ use of Government housing.

We believe that the Park Service should determine whether concessioners are or should be
subject to the same requirement as Park Service employees, contractors, and cooperators who
obtain Government housing directly from the Park Service and are required to pay rent at
amounts that do not “serve as an inducement to recruit or retain employees.” We estimated
that the Government would have received additional revenues of about $3.8 million in fiscal
year 1998, based on an average monthly rent of $106.84 for each of these employees. if it
had charged fees for housing that was provided to almost 4,000 concessioner employees who
used 979 Park Service housing units (based on September 1998 data supplied by the Park
Service). ‘O While we recognize that concessioners are required to maintain the housing and,
in some cases, pay for capital improvements to the property, we believe that the Park Sen-ice
should determine the rental value of housing assigned to concessioners and, based on
comparable rents charged to other users of park housing, ensure that the Government
receives equitable compensation for the use of the housing. However, there may be legal
issues involved in assessing a fee for Government facilities that are assigned to concessioners
and used to house concessioners and/or concessioners’ employees. As such, we believe that
the Park Service should seek a Solicitor’s opinion as to whether the Park Service is


“The average monthly housing rate was based on dormitory rental rates established by the Bureau of
Reclamation, which is responsible for setting Park Service housing rates, in surveys conducted at eight parks
in fiscal years 1996 and 1997. The total amount of estimated additional revenues was computed on the basis
of each employee residing in Park Service housing for a 9-month period each year.

                                                     15
authorized to charge concessioners a rental fee for their employees’ use of Government
quarters.

Recommendations

We recommend that the Director, National Park Service:

        1. Ensure compliance with the February 9, 1999, revised provisions of Special
Directive 95-9 which require that the specified concession contracting actions be approved
by the Associate Director, Park Operations and Education, or by the Director or the Deputy
Director.

        2. Assign, to a senior-level management official such as the Deputy Director, the
authority to ensure that park superintendents and regional directors successfully perform their
designated concession contracting responsibilities.

       3. Include, for officials involved in the concession contracting process, a critical
element for the successful completion of assigned concession contracting duties in their
annual performance standards.

        4. Include in the National Park Service’s Annual Performance Plan specific,
quantifiable, and appropriate measures for the concession contracting program activity and
develop and implement controls to ensure that concession contracting accomplishments
included in the Performance Plan are reported accurately.

        5. Issue and implement procedures to ensure that clear lines of authority,
responsibility, and accountability are established for personnel, whether under contract or
in-house, who provide technical support for concession contracting.

        6. Issue guidance and establish controls to ensure that franchise fees are periodically
reconsidered, as required by the law in effect at the date of contract or permit issuance, and
that recommended fee adjustments are implemented unless deviations are fully justified and
documented.

        7. Establish controls to ensure that the amounts to be paid into concessioners’ special
accounts are supported with documentation which lists the specific projects and project costs
that are to be funded from the accounts and that projects identified for special account
funding are capital improvements and not maintenance work.

        8. Ensure that building use fees are computed during the fee determination process
for each Government facility used by concessioners and that controls are implemented which
provide assurance that building use fees are considered in evaluating the feasibility of
concessions operations.




                                              16
        9. Request a Solicitor’s opinion on whether the Park Service is authorized to charge
a rental fee for Government quarters assigned to concessioners for use by concessioners’
employees and whether the fee should be computed in accordance with Office of
Management and Budget Circular A-45. If such a fee is authorized. policies and procedures
should be established to implement a rental charge for concessioner use of Government
quarters.

National Park Service Response and Office of Inspector General Reply

In the May 27, 1999, response (Appendix 4) to the draft report, from the Director, National
Park Service, the Park Service indicated concurrence with Recommendations 1, 5, 6, 7, 8,
and 9 and said that Recommendations 2,3, and 4 were “under consideration.” Based on the
response, we consider Recommendations 5 and 7 resolved and implemented. Also based
on the response, we request that the Park Service reconsider its responses to
Recommendations 1, 2, 3, 4, 6, and 8, which are unresolved, and provide additional
information for Recommendation 9 (see Appendix 5).

Recommendation 1. Concurrence indicated.

        National Park Service Response. The Park Service stated that the recommendation
had “been adopted, as evidenced by issuance ofthe February 9, 1999, memorandum.” It also
said that reviews of contracting actions conducted by the Concession Program Center and
Washington Office were “summarized and presented to the Associate Director, Park
Operations and Education and/or the Director, as appropriate, for final determinations.”

        Office of Inspector General Reply. The Park Service did not indicate how it would
ensure compliance with its February 9,1999, memorandum, which assigned to the Associate
Director, Park Operations and Education, approval authority for certain concession
contracting actions and reserved the approval authority for concession operations “where
gross receipts are expected to exceed $10,000,000 annually” to the Director. Park Service
personnel did not comply with the prior guidance (Special Directive 95-9), which required
the Director’s approval of certain concession contracting actions, and the Park Service, in its
response, did not state whether additional controls would be impIemented to ensure that its
personnel comply with the newly revised guidance on approval authorities. During our
audit, we found no indication that the Concession Program Center or the Washington Office
conducted Servicewide reviews of contracting actions. The Park Service is requested to
provide information on the actions it plans to take to ensure that Park Service personnel
obtain the appropriate approval for concession contracting actions. in accordance with its
February 1999 “Delegation of Approval Authority. Concession Contracts and Permits.”

Recommendations 2,3, and 4. Concurrence/nonconcurrence not indicated.

        National Park Service Response.       The Park Service said that these three
recommendations were “under consideration, and a final decision should be made within the
next few weeks.”

                                              17
         Office of Inspector General Reply. The Park Service is requested to provide
information on the controls (such as those described in Recommendations 2, 3, and 4) it
plans to implement to ensure that concession contracting actions are conducted in accordance
with applicable policies and procedures.

Recommendation 6. Concurrence indicated.

       National Park Service Response. The Park Service said that it had issued the
guidance and that it had provided our office a copy of the guidance.

       Office of Inspector General Reply. In our report. we stated that guidance had been
issued on franchise fee reconsiderations for contracts that were issued under Public Law 89-
249, which was repealed in November 1998. However, we found that Park Service
personnel had not complied with the guidance. At the conclusion of our fieldwork, the Park
Service had not issued new guidance on fee reconsiderations under the new concession
legislation (Public Law 10591), which changed the conditions under which fees could be
reconsidered. The Park Service is requested to provide information on the actions it plans
to take to ensure that fee reconsiderations are conducted in accordance with the concession
program legislation in effect at contract issuance.

Recommendation 8. Concurrence indicated.

       National Park Service Response. The Park Service said that “[bluilding use fees
will be computed as part of the fee determination process.” It also said that the requirement
for building use fee computation would be “incorporated in a forthcoming staff manual that
will be issued after regulations and management policies have been adopted.”

       Office of Inspector General Reply.           Although the Park Service indicated
concurrence with the recommendation, it did not provide information on the actions it plans
to take to ensure that building use fees are computed and considered in determining fees and
evaluating the feasibility of concessions operations.

Recommendation 9. Concurrence indicated.

        National Park Service Response. The Park Service said that it would “request a
Solicitor’s Opinion on whether we [the Park Service] are authorized to charge a rental fee
for Government quarters assigned to concessioners for use by concessioners. employees and
whether the fee must be computed in accordance with Office of Management and Budget
Circular A-45.”

       Office of Inspector Geheral Reply. The Park Service is requested to provide a date
by which it will request a Solicitor’s opinion on charging concessioners a rental fee for the
use of Government-assigned quarters and the title of the official who will be responsible for
requesting the opinion.



                                             18
Additional Comments on Finding

The Park Service stated that the report did not recognize its “many significant
accomplishments.” The Park Service, in providing support for this statement, said that it had
reduced its backlog of expired contracts and permits from about 95 percent in 1995 to 28
percent by November 1998. It also said that it had developed a detailed concession
contracting training program and had offered “numerous training sessions” to concessions
personnel during 1997 and 1998.

Our audit scope generally covered concession contracting activities that occurred in fiscal
years 1996 and 1997; therefore, we cannot comment on whether the Park Service reduced
its backlog of expired contracts and permits by 67 percent during the 4-year period cited,
fiscal year 1995 through November 1998. Also, based on discussions with Park Service
concessions personnel, we believe that a reduction in the backlog may not necessarily have
resulted in commensurate benefits to the Government. For example, in an interview, a
Southeast Regional official initially said that the Region had reissued 29 expired contracts
in fiscal year 1998. In a later discussion, another Regional official said that although the
Park Service had attempted to reissue 29 contracts in fiscal year 1998, it had issued 2-year
extensions for 26 expired contracts and had not negotiated extensions for 3 other expired
contracts. The official further stated that the extensions contained updated contract language
but did not contain changed terms and conditions for contractor performance or changes in
the amount of compensation paid to the Government (such as a reconsideration of the
franchise fees). Although the backlog of expired contracts was reduced, these actions were
merely extensions of existing contracts without reconsideration of the contracts’ terms and
conditions. Regarding the Park Service’s comments on its training program, we did not
review training during the audit because concessions personnel did not indicate that they
were not sufficiently skilled or trained in concession contracting procedures.




                                             19
                                                                   APPENDIX 1

             CLASSIFICATION OF MONETARY AMOUNTS

                                         Potential Additional
          Description                         Revenues          Lost Revenues


Implementation of recommended
 fee increases (based on calendar
 year 1996 and 1997 unimplemented
 increased fees for seven contracts)           $232.700

Delay in reissuance of an expired
 agreement (based on additional
 revenues that might have been
 earned in fiscal years 1996 and 1997)                                 $162,600

Concession fees at less than
 recommended amount                                                   1,118,700

Rental fees from concessioner use
 of Government housing                        3,800.OOO

  Total                                       $4.032.700             $1.281.300




                                         20
                                                                            APPENDIX 2

                                OFFICES CONTACTED

         OFFICE                                                     LOCATION
Concessions Program Division                               Washington. D.C.
     Concession Program Center                             Lakewood, Colorado
Alaska Regional Office                                     Anchorage. Alaska
     Denali National Park                                  Denali Park. Alaska
     Glacier Bay National Park                             Gustavus, Alaska
Intermountain Regional Office                              Denver, Colorado
     Dinosaur National Monument                            Dinosaur, Colorado
     Canyonlands National Park                             Moab, Utah
     Glacier National Park                                 West Glacier. Montana
     Glen Canyon National Recreation Area                  Page, Arizona
     Grand Canyon National Park                            Grand Canyon, Arizona
     Grand Teton National Park                             Moose, Wyoming
     Rocky Mountain National Park                          Estes Park, Colorado
     Yellowstone National Park                             Yellowstone, Wyoming
     Zion National Park                                    Springdale, Utah
Midwest Regional Office                                    Omaha, Nebraska
     Buffalo National River                                Harrison, Arkansas
     Isle Royal National Park                              Houghton, Michigan
     Jefferson National Expansion Memorial
      National Historic Site                               St. Louis, Missouri
     Sleeping Bear Dunes National Lakeshore                Empire, Michigan
     Voyageurs National Park                               International Falls, Minnesota
National Capitol Regional Office                           Washington. D.C.
Northeast Regional Office                                  Philadelphia, Pennsylvania
     Fort McHenry National Monument                        Baltimore, Maryland
     Gateway National Recreation Area                      Brooklyn. New York
     Gettysburg National Military Park                     Gettysburg, Pennsylvania
Pacific West Regional Office                               San Francisco, California
     Death Valley National Park                            Death Valley, California
     Golden Gate National Recreation Area                  San Francisco, California
     Lake Mead National Recreation Area                    Boulder City. Nevada
     Mount Rainier National Park                           Ashford, Washington
     North Cascades National Park Complex                  Sedro Woolley, Washington
     Olympic National Park                                 Port Angeles, Washington
     Point Reyes National Seashore                         Point Reyes, California
     Whiskeytown-Shasta-Trinity National Recreation Area   Whiskeytown, California
     Yosemite National Park                                Yosemite, California
Southeast Regional Office                                  Atlanta, Georgia
     Big South Fork National River and Recreation Area     Oneida, Tennessee
     Cape Lookout National Seashore                        Harkers Island, North Carolina
     Everglades National Park                              Homestead, Florida
     Gulf Islands National Seashore                        Gulf Breeze. Florida
     Virgin Islands National Park                          St. Thomas, Virgin Islands




                                                21
                                                                                APPENDIX 3
                                                                                  Page 1 of 3


                            PRIOR AUDIT COVERAGE

During the past 6 years, the Office of Inspector General has issued seven audit reports and
the General Accounting Office has issued three reports related to National Park Service
concession contracting and management.

Office of Inspector General Reports

The Office of Inspector General has issued the following reports:

         - The April 1998 report “Followup of Recommendations Concerning Utility Rates
Imposed by the National Park Service”(No. 98-I-406) stated that the Park Service did not
implement prior audit report recommendations to (1) revise a directive to provide employees
with guidance on the recovery of utility system capital investment costs; (2) recover fully all
utility system operational costs provided to non-Governmental users, including
concessioners; and (3) ensure that internal controls over the collection and deposit ofreceipts
for utility services are in compliance with Park Service regulations. The report contained six
recommendations, all of which were considered resolved but not implemented.

        - The March 1998 report “Concessioner Improvement Accounts” (No. 98-I-389)
stated that the Park Service had not provided clear, sufficient, and timely guidance to ensure
that account funds were used appropriately and that the Park Service allowed concessioners
to use these funds before procedures were issued. Also, concessioners made improper
deductions from recorded gross receipts in determining the amounts required to be deposited
into improvement accounts. As a result, improvement account funds were used or planned
for (1) projects that did not directly support concessions operations or that benefitted both
the Park Service and concessioners and would have been appropriate for cost sharing
($17.5 million), (2) expenditures that related to concessions operations which would not be
considered proper uses of the funds under the new procedures ($1.2 million), and (3) capital
projects for which the concessioner inappropriately was granted possessory interest
($823,000). We also found that additional funds of about $124,800 should have been
deposited into these accounts. The report contained three recommendations, of which one
was considered resolved and implemented and two were considered unresolved.

        - The March 1998 report “Followup of Maintenance Activities, National Park
Service” (No. 98-I-344) stated that the Park Service did not fully implement three of eight
recommendations in the two prior audit reports “Maintenance Work Performed for Non-
Government Recipients, National Park Service,” issued in September 1991, and
“Maintenance of the National Park System, National Park Service.” issued in February 1992.
We found that the Park Service had not taken sufficient actions to recover its costs of
maintaining facilities used by concessioners and other non-Governmental entities and had
“essentially” discontinued use of its standardized maintenance management system. Three
of the report’s four recommendations were considered unresolved. and one was considered
resolved and implemented.


                                              22
                                                                               APPENDIX 3
                                                                                 Page 2 of 3

        - The June 1997 report “National Park Service Financial Statements for Fiscal Years
1995 and 1996” (No. 97-I-936) stated that the Park Service had not established a process to
allow it to collect, in a timely manner, reliable information on the number of “special
concession accounts” and their balances, deposits, and disbursements to ensure that
information in the notes to its financial statements was complete and accurate. The report
contained one recommendation on this issue, which was considered resolved and partially
implemented.

        - The February 1997 report “Oversight of Concessions Operations and Fee
Payments, Guest Services, Inc.. and Rock Creek Park Horse Centre, Inc.” (No. 97-I-5 15)
stated that the Park Service needed to strengthen its oversight and to implement additional
controls to ensure that concessioners complied fully with Park Service guidance (NPS-48)
and with the terms and conditions of the concession contracts. The report contained eight
recommendations, of which seven were considered resolved and implemented and one was
considered resolved but not implemented.

        - The September 1994 report “Concessions Management. National Park Service”
(No. 94-I-121 1) stated that the Park Service did not reconsider franchise fees in a timely
manner, undercharged concessioners for the use of Government-owned facilities,
overcompensated a concessioner for its possessory interest, and unnecessarily allowed
concessioners to exclude certain revenues from gross receipts. The report also stated that the
Park Service had not adequately monitored special accounts which financed maintenance
work and capital improvements. The report contained 13 recommendations, of which 12
were considered resolved and implemented and 1 was considered resolved but not
implemented.

        - The May 1993 report “Compliance With the Federal Managers’ Financial Integrity
Act by Selected Bureaus” (No. 93-I-l 0 11) stated that concession fees were not reconsidered
in a timely manner, concession contracts were extended without increasing fees,
concessioners were permitted to sell their concession rights at inflated prices, models for
pricing facility use charges had not been developed, and concessioners’ possessory interests
were compensated at amounts which were not based on the value of the concessioners’
possessory interests. The report contained one recommendation on this issue, which was
considered resolved and implemented.

General Accounting Office Reports

The General Accounting Office has issued the following reports:

        - The March 1998 report “Concession Reform Issues” (No. GAO/T-RCED-98- 122)
stated that for concession agreements which were either initiated or extended during fiscal
year 1994, concessioners in land management agencies paid the Government an average of
about 3.0 percent of their gross revenues (the Park Service’s average return was about
3.5 percent). In contrast. according to the report, concessioners in nonland management
agencies paid fees of about 9.0 percent of their gross revenues. The report contained no
recommendations.

                                             23
                                                                               APPENDIX 3
                                                                                 Page 3 of 3

        - The May 1996 report “Information on Special Account Funds at Selected Park
Units” (No. GAORCED-96-90) stated that Park Service officials acknowledged that they
did not have a system in place to routinely or systematically collect information on
concessioners’ special accounts but that a computerized tracking system to monitor the
accounts would be implemented. The report contained no recommendations.

        - The September 1993 report “Improvements Needed in JManaging Short-Term
Concessioners” (No. GAO/RCED-93- 177) stated that nationwide, about 6,000 short-term
agreements (of 5 years or less) existed under which concessioners provide goods and senices
to the public on Federal land managed by the National Park Service, the U.S. Fish and
Wildlife Service, the Bureau of Land Management, and the U.S. Forest Service. The report
stated that the policies and procedures for administering short-term agreements varied
considerabiy among the four agencies in the areas of annual overall performance evaluations,
health and safety inspections, and fees paid to the Government for the use of its lands. In the
report, the General Accounting Office recommended that the four agencies develop and
present to the Congress a policy to achieve greater consistency and that the Park Service
reevaluate each concessioner operating under a commercial-use license to determine whether
the activities should be authorized under a permit.




                                              24
                                                                                                  @PENDIX 4

                            United States Department of the -&terior Page ’ Of 3
                                               NATIONAL PARK SERVICE
                                                      P.O. Box 37127
                                                Washington, D. C. 20013-7127
IN REPLY   REFER TO:


            C3823(2410)
                                                       wv27t999
            Memorandum

            To:               Assistant Inspector General for Audits

            From:             Director, National Park Service

           Subject:           Draft Audit Report on Concession Contracting Procedures, National Park
                              Service (Assignment No. E-IN-NPS-O14-97-D)

           This will respond to your March 31 memorandum, transmitting for our review and comment the
           draft audit report on concession contracting procedures.

            As we indicated during the exit interview, we are somewhat concerned that the report does not
            present a balanced picture. While we recognize that there are programmatic improvements that
            need to be made, we do not believe that the report recognizes many significant accomplishments.
            For example, the backlog of expired contracts and permits was reduced from approximately 95
           percent in 1995 (when contracting was resumed) to 28 percent by November 1998. This
           reduction was accomplished during a period of downsizing and organizational restructuring, as
           well as uncertainty about the future of the concession contracting program due to pending
           legislation. Several of the contracts awarded during this period were major ones that resulted in
           substantial improvements in the Government’s position. Examples include contracts for food and
           lodging facilities and services at Yosemite and Sequoia/Kings Canyon, and the renewal of the
           contracts for river running services at Grand Canyon. A detailed concession contracting training
           program was developed and numerous training sessions for concession personnel were offered          .
           during 1997 and 1998. Most park and regional personnel with full time or collateral duty
           concession responsibilities have now been trained in concession contracting.

       As a result of the passage of the National Park Service Concessions Management Improvement
       Act of 1998 (P.L. 105-391), contracting activities have again been suspended pending the
       development of revised contracting regulations and standard contract language consistent with
       the provisions of the new legislation. Draft regulations were developed by the National Park
       Service within 3 months of the passage of the new legislation, and are currently undergoing Office
       of Management and Budget review.

       Our responses to the specific recommendations of the report are as follows.

       1. Ensure compliance with the February 9, 1999, revised provisions of Special Directive 95-9
       which require that the Associate Director, Park Operations and Education, and the Director
       should approve specified concession contracting actions.

                    This recommendation has been adopted, as evidenced by issuance of the February 9,
                     1999, memorandum. Reviews of contracting actions conducted by concession staff at
                    the Concession Program Center and/or the Washington Office are summarized and
                    presented to the Associate Director, Park Operations and Education and/or the Director,
                    as appropriate, for final determinations.


                                                        25
t
    . -                                                                                          APPENDIX 4
                                                                                                   Page 2 of 3
           2. Assign, to a senior-level management official such as the Deputy Director, the authority to
           ensure that park superintendents and regional directors successfully perform their designated
           concession contracting responsibilities.

                   This recommendation is under consideration, and a final decision should be made within
                   the next few weeks.

           3. Include, for officials involved in the concession contracting process, a critical element for the
           successful completion of assigned concession contracting duties in their annual performance
           standards.

                   This recommendation is under consideration, and a final decision should be made within
                   the next few weeks.

          4. Include in the National Park Service’s Annual Performance Plan specific, quantifiable, and
          appropriate measures for the concession contracting program activity and develop and
          implement controls to ensure that concession contracting accomplishments included in the
          Performance Plan are reported accurately.

                  This recommendation is under consideration, and a final decision should be made within
                  the next few weeks.

          5. Issue and implement procedures to ensure that clear lines of authority, responsibility, and
          accountability are established for personnel, whether under contract or in-house, who provide
          technical support for concession contracting.

                  This recommendation has been adopted. Lines of authority, responsibility and
                  accountability have been outlined in a February 5. 1999, memorandum to all regional
                  directors. A copy of this memorandum was provided previously to the Office of
                  Inspector General.

          6. Issue guidance and establish controls to ensure that franchise fees are periodically
          reconsidered, as required by the law in effect at the date of contract or permit issuance, and that
          recommended fee adjustments are implemented unless deviations are fully justified and
          documented.

                  We agree with this recommendation. Guidance has been issued and a copy has been
                  provided previously to the Office of Inspector General.

          7. Establish controls to ensure that the amounts to be paid into concessioners’ special accounts
          are supported with documentation which lists the specific projects and project costs that are to be
          funded from the accounts and that projects identified for special account funding are capital
          improvements and not maintenance work.

                  We agree with this recommendation, Controls have been established, particularly the
                  development of Exhibit H for concession contracts containing special accounts. These
                  procedures are being reviewed and will be updated to assure that projects identified for
                  special account finding are capital improvements and not maintenance work. As a result
                  of the passage of the National Park Service Concessions Management Improvement Act
                  of 1998, no new contracts containing special account provisions will be issued.

          8. Ensure that building use fees are computed during the fee determination process for each
          Government facility used by concessioners and that controls are implemented which provide
          assurance that building use fees are considered in evaluating the feasibility of concession
          operations.



                                                        26
                                                                                   APPENDIX 4
                                                                                     Page 3 of 3 a
        We agree with this recommendation. Building use fees will be computed as part of the .
        fee determination process for each Government facility used by concessionen. This
        requirement will be incorporated in a forthcoming staff manual that will be issued after
        regulations and management policies have been adopted.

9. Request a Solicitor’s opinion on whether the Park Service is authorized to charge a rental fee
for Government quarters assigned to concessionen for use by concessioners’ employees and
whether the fee should be computed in accordance with Office of Management and Budget
Circular A-45. If such a fee is authorized, policies and procedures should be established to
implement a rental charge for concessioner use of Government quarters.

        We agree with this recommendation, The National Park Service will request a Solicitor’s
        Opinion on whether we are authorized to charge a rental fee for Government quarters
        assigned to concessioners for use by concessioners’ employees and whether the fee
        must be computed in accordance with OMB Circular A-45. A final policy decision on this .
        matter will be made upon receipt and review of the Solicitors Opinion.

If we can provide any additional information on this matter, please let us know.




                                           27
                                                               APPENDIX 5




        STATUS OF AUDIT REPORT RECOMMENDATIONS

Finding/Recommendation
        Reference          Status                Actions Rewired

    1,2, 3,4,6,and 8     Unresolved      Reconsider responses to the
                                         recommendations, and provide
                                         plans for implementing
                                         corrective actions, including
                                         target dates and titles of officials
                                         responsible for implementation.

        5and7            Implemented     No further response is required.

           9             Management      Provide a target date and title of
                         concurs;        the official responsible for
                         additional      implementation.
                         information
                         needed.




                                    28
                    ILLEGAL OR WASTEFUL ACTIVITIES
                        SHOULD BE REPORTED TO
                   THE OFFICE OF INSPECTOR GENERAL


                                Internet/E-Mail Address

                                       www.oig.doi.gov



                       Within the Continental United States

 U.S. Department of the Interior                         Our 24-hour
 ~ffrce of Inspector General                             Telephone HOTLINE
 1849 C Street, N.W.                                     I-800424-508 1 or
 Mail Stop 5341                                          (202) 208-5300
 Washington, D.C. 20240

                                                         TDD for hearing impaired
                                                         (202) 208-2420 or
                                                         l-800-354-0996


                      Outside the Continental United States

                                      Caribbean Region

U.S. Department of the Interior                       (703) 235-9221
office of Inspector Genera1
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                    North Pacific Region

U.S. Department of the Interior                       (67 1) 647-6060
Offke of Inspector General
North Pacific Region
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Tamuning, Guam 96911
:     Toll Free Numbers:
  :    l-800-424-5081           L
  :                             5
  :    TDD l-800-354-0996
                                5
*:                              5
 :    FEYCommercial Numbers:
       (202) 208-5300
-!.    TDD (202) 208-2420       E
                                f



.     1849 C Street, N.W.
:     Mail stop 5341
i
d     Was1 Gngton, D.C. 20240
:
:
.
